APP. 1

APP. 2

WHEREAS, on the 27th day of May 1986, the Honorable George Reinhardt entered a
Judgment and Sentence sentencing the above named Defendant, GERALD ROSS PIZZUTO, JR.,
to death for two counts of First Degree Murder; and
WHEREAS, on the 15 th day of April 1988, the Honorable George Reinhardt entered an
order denying the above named defendant, GERALD ROSS PIZZUTO, JR., post-conviction relief;.
and
WHEREAS, on the 15 th day of January 1991, the Idaho Supreme Court issued its opinion
upholding the conviction and sentence and affirming denial of post-conviction relief, and issued
its Remittitur on the 5 th day of June, 1991; and
WHEREAS, on the 2nd day of March 1992, the United States Supreme Court denied
certiorari for the above named defendant, GERALD ROSS PIZZUTO, JR., and
WHEREAS, all other requests for post-conviction and state collateral relief filed by the
above named defendant, GERALD ROSS PIZZUTO, JR., have been denied by the state district
court; and
WHEREAS, the Idaho Supreme Court has affirmed the denial of all other requests for
post-conviction and state collateral relief filed by the above named defendant, GERALD ROSS
PIZZUTO, JR.; and
WHEREAS, on the 7th day of April 1997, the Honorable Alan M. McDonald entered
Judgment denying the above named defendant, GERALD ROSS PIZZUTO, JR., federal habeas
relief; and
WHEREAS, on the 6th day of February 2002, the United States Court of Appeals, Ninth
Circuit, affirmed the denial of federal habeas relief; and

DEATH WARRANT - 2

APP. 3

WHEREAS, on the 31st day of October 2005, the United States Supreme Comt denied
certiorari for the above named defendant, GERALD ROSS PIZZUTO, JR, and

WHEREAS, all other requests for federal habeas filed by the above named defendant,
GERALD ROSS PIZZUTO, JR., have been denied by the Federal District of Idaho; and

WHEREAS, the United States Court of Appeals, Ninth Circuit, has affirmed the denial of
all other requests for federal habeas relief; and

WHEREAS, Idaho Code § 19-2715(2) mandates the"'state to apply for a death warrant
from the district court in which the conviction was had after a sentence of death has been affirmed
and the remittitur issued; and

WHEREAS, pursuant to Idaho Code§ 19-2715(5) the Court has inquired and finds there
is an existing death sentence and that no valid stays of execution are cunently in place; and

WHEIU:AS, Idaho Code§ 19-2715(2) mandates that, upon such application, the district
court shall set a new execution date not more than thirty (30) days thereafter;

NOW THEREFORE, YOU ARE HEREBY COMMANDED, pursuant to Idaho Code
§ 19-2716 and the Judgment of this Court, to receive said Defendant into your custody, and on the
2nd day of June, 2021, you shall cause the execution of said sentence of death to take place, unless
said sentence is stayed by law, and that you shall make a return upon this Death WalTant, showing
the time, mode and manner in which it was executed pursuant to Idaho Code § 19-2718.

µ�o/'--'"-_-_'2021. _

DATED this�ay of __

DEATH WARRANT - 3

--

_ _ _

APP. 4

APP. 5

